OIG Investigative Reports Press Release Alexandria, VA., 07/26/2013 - Former Chief & President Of Remington, Virginia Fire Department Indicted Separately For Fraud, Embezzlement
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
THE UNITED STATES ATTORNEY'S OFFICE
EASTERN DISTRICT of VIRGINIA
NEWS
Former Chief & President Of Remington, Virginia Fire Department Indicted Separately For Fraud, Embezzlement
FOR IMMEDIATE RELEASE
July 26, 2013
ALEXANDRIA, Va. – Douglas G. “Bo” Taylor, age 52, of Remington, Va., the former Chief of the Remington Volunteer Fire & Rescue Department (“RVFD”), was charged in an eight-count  indictment by a federal grand jury on allegations related to theft from a program receiving federal funds, wire fraud and filing false individual income tax returns, according to charges unsealed today.   In a separate indictment, William Joseph Stuart, age 52, of Bealton, Va., the former President of the RVFD, was also charged with theft from a program receiving federal funds, according to a one-count indictment made public yesterday.
Neil H. MacBride, United States Attorney for the Eastern District of Virginia; Valerie Parlave, Assistant Director in Charge of the FBI’s Washington Field Office; and Thomas J. Kelly, Special Agent in Charge, Washington, D.C. Field Office, IRS-Criminal Investigation, made the announcement today after the indictment of Taylor was unsealed.  Taylor is scheduled to make his initial appearance later this afternoon in the United States District Court for the Eastern District of Virginia. Stuart is expected to appear in the same Court on Friday, August 2, 2013, for his arraignment.
Taylor faces a maximum penalty on the two theft charges of ten years in prison, and twenty years in prison for each of the four wire fraud charges.  These charges carry a maximum fine of $250,000 and full restitution.  Finally, for each of the two charges alleging the filing of false income tax returns, Taylor faces a maximum penalty of three years in prison, a $100,000 fine, and full restitution.  Stuart faces a maximum penalty on the single theft count of ten years in prison, $250,000 fine, and full restitution.
According to the indictment, Taylor served as the Chief of the RVFD from 1994 through 2011, during a time when the RVFD fire station underwent major renovations and reconstruction with funding, in significant part, from the U.S. Department of Agriculture.  The indictment alleges that Taylor, a licensed master electrician, offered to do some of the renovations at the fire station and only seek reimbursement for his out of pocket expenses.  As the charges allege, Taylor then submitted false invoices which contained charges for materials Taylor did not purchase and charges for labor that, at times, was never performed or were inflated from the hours that were actually performed.  Taylor is also accused of using a Prince William County Public Schools System (“PWCS”) credit card to purchase some of the materials used at the fire station project (and elsewhere).  In total, the indictment alleges that Taylor defrauded the RVFD of more than $90,000 and the PWCS of approximately $60,000.  Finally, Taylor is accused of not disclosing the money he fraudulently obtained from the RVFD and winnings from the Virginia lottery on two individual income tax returns filed with the IRS.
A separate indictment alleges that during 2008 and 2009, Stuart embezzled approximately $40,000 from the RVFD financial accounts where he had signature authority.
This case was investigated by the Federal Bureau of Investigation’s Washington Field Office and the Internal Revenue Service, Criminal Investigation.  Assistant United States Attorney Mark D. Lytle is prosecuting the case on behalf of the United States.
Any person who believes they may have information regarding public corruption in the Northern Virginia area is encouraged to call the FBI’s Northern Virginia Public Corruption Hotline at 703-686-6225.
A copy of this press release may be found on the website of the United States Attorney’s Office for the Eastern District of Virginia at http://www.justice.gov/usao/vae. Related court documents and information may be found on the website of the District Court for the Eastern District of Virginia at http://www.vaed.uscourts.gov or on https://pcl.uscourts.gov.
Top
Printable view
Last Modified: 08/01/2013
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov